GR-70-98-025
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
 Community Oriented Policing Services
Grants to the City of Syracuse, New York, Police Department
GR-70-98-025
 
September 25, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the City of Syracuse, New York, Police Department (Syracuse). Syracuse
was awarded a total of $3,943,128 to hire 50 new sworn police officers and redeploy 7.7
full-time equivalent (FTE) sworn police officers to community policing. 

Syracuse Police Department violated the following grant conditions.



Most reimbursement requests under the Accelerated Hiring, Education, and Deployment
      (AHEAD) and the Universal Hiring Program (UHP) grants were not proper. The requests
      included $129,574 in federal funds and local matching funds spent on salaries and fringe
      benefits that were not in accordance with grant conditions. Syracuse requested 75.2
      percent of these costs as reimbursement for the federal share and received $97,440. As a
      result, we question the $97,440 Syracuse received in reimbursement for these unallowable
      costs. 

Syracuse did not develop a plan for the redeployment of 7.7 FTEs under the Making
      Officer Redeployment Effective (MORE 96) grant. In addition, Syracuse officials said they
      did not plan to assign any additional officers to the departments Community Policing
      Division. Therefore, we question $142,973 and recommend that $50,155 be put to better use.

Syracuse did not have the required number of officers performing community policing. At
      the time of our audit, Syracuse had hired 42 grant-funded officers. However, Syracuse
      increased the number of officers performing community policing by only 24 officers, 18
      short of the 42 required. 


These items are discussed in the Findings and Recommendations section
of the report. Our scope and methodology appear in Appendix II.
#####